<html>
<title> - MARINE DEBRIS AND WILDLIFE: IMPACTS, SOURCES, AND SOLUTIONS</title>
<body><pre>[Senate Hearing 114-390]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 114-390

                      MARINE DEBRIS AND WILDLIFE: 
                    IMPACTS, SOURCES, AND SOLUTIONS

=======================================================================

                                HEARING

                               BEFORE THE

                      SUBCOMMITTEE ON FISHERIES, 
                          WATER, AND WILDLIFE

                                 OF THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               ----------                              

                              MAY 17, 2016

                               ----------                              

  Printed for the use of the Committee on Environment and Public Works
  
  
  [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


       Available via the World Wide Web: http://www.gpo.gov/fdsys
       
                               -----------
                               
                               
                   U.S. GOVERNMENT PUBLISHING OFFICE
22-168 PDF                WASHINGTON : 2016                   
_____________________________________________________________________________________      
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="b5d2c5daf5d6c0c6c1ddd0d9c59bd6dad89b">[email&#160;protected]</a>  
               
               
               
               
               
               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                    ONE HUNDRED FOURTEENTH CONGRESS
                             SECOND SESSION

                  JAMES M. INHOFE, Oklahoma, Chairman
DAVID VITTER, Louisiana              BARBARA BOXER, California
JOHN BARRASSO, Wyoming               THOMAS R. CARPER, Delaware
SHELLEY MOORE CAPITO, West Virginia  BENJAMIN L. CARDIN, Maryland
MIKE CRAPO, Idaho                    BERNARD SANDERS, Vermont
JOHN BOOZMAN, Arkansas               SHELDON WHITEHOUSE, Rhode Island
JEFF SESSIONS, Alabama               JEFF MERKLEY, Oregon
ROGER WICKER, Mississippi            KIRSTEN GILLIBRAND, New York
DEB FISCHER, Nebraska                CORY A. BOOKER, New Jersey
MIKE ROUNDS, South Dakota            EDWARD J. MARKEY, Massachusetts
DAN SULLIVAN, Alaska

                 Ryan Jackson, Majority Staff Director
               Bettina Poirier, Democratic Staff Director
                              ----------                              

             Subcommittee on Fisheries, Water, and Wildlife

                     DAN SULLIVAN, Alaska, Chairman
JOHN BARRASSO, Wyoming               SHELDON WHITEHOUSE, Rhode Island
SHELLEY MOORE CAPITO, West Virginia  THOMAS R. CARPER, Delaware
JOHN BOOZMAN, Arkansas               BENJAMIN L. CARDIN, Maryland
JEFF SESSIONS, Alabama               BERNARD SANDERS, Vermont
ROGER WICKER, Mississippi            KIRSTEN GILLIBRAND, New York
DEB FISCHER, Nebraska                CORY A. BOOKER, New Jersey
MIKE ROUNDS, South Dakota            EDWARD J. MARKEY, Massachusetts
JAMES M. INHOFE, Oklahoma (ex        BARBARA BOXER, California (ex 
    officio)                             officio)
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                              MAY 17, 2016
                           OPENING STATEMENTS

Sullivan, Hon. Dan, U.S. Senator from the State of Alaska........     1
Whitehouse, Hon. Sheldon, U.S. Senator from the State of Rhode 
  Island.........................................................     3

                               WITNESSES

Kurth, Hon. Jim, Deputy Director, U.S. Fish and Wildlife Service.     4
    Prepared statement...........................................     7
    Responses to additional questions from Senator Boozman.......    12
    Response to an additional question from Senator Whitehouse...    15
Pallister, Chris, President and Co-Founder, Gulf of Alaska Keeper    26
    Prepared statement...........................................    29
Jambeck, Jenna, Associate Professor of Environmental Engineering, 
  University of Georgia..........................................    34
    Prepared statement...........................................    36
    Response to an additional question from Senator Whitehouse...    48
Mallos, Nicholas, Director, Trash Free Seas Program, Ocean 
  Conservancy....................................................    50
    Prepared statement...........................................    52
    Response to an additional question from Senator Whitehouse...   418
Stone, Jonathan, Executive Director, Save the Bay................   419
    Prepared statement...........................................   421

 
      MARINE DEBRIS AND WILDLIFE: IMPACTS, SOURCES, AND SOLUTIONS

                              ----------                              


                         TUESDAY, MAY 17, 2016

                               U.S. Senate,
         Committee on Environment and Public Works,
            Subcommittee on Fisheries, Water, and Wildlife,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:11 a.m. in 
room 406, Dirksen Senate Office Building, Hon. Dan Sullivan 
(Chairman of the Subcommittee) presiding.
    Present: Senators Sullivan, Whitehouse, Boozman, Fischer, 
Rounds, Inhofe, Gillibrand, and Markey.

            OPENING STATEMENT OF HON. DAN SULLIVAN, 
             U.S. SENATOR FROM THE STATE OF ALASKA

    Senator Sullivan. Good morning.
    Senator Inhofe. May I make a real quick statement?
    Senator Sullivan. Yes, sir.
    Senator Inhofe. I have floor time in 5 minutes, but I want 
to come back because I have a special interest in this first 
witness I've already talked about, so I will be right back.
    Senator Sullivan. OK. Thank you, Mr. Chairman.
    The Subcommittee on Fisheries, Water, and Wildlife will now 
come to order. The purpose of this hearing is to examine the 
impacts and sources of marine debris on wildlife population and 
potential solutions to this issue.
    I want to begin by apologizing for being late. A little bit 
of bad traffic out there. Appreciate the patience.
    More specifically, for coastal States, particularly those 
on the West Coast and East Coast, prevalence of marine debris 
on our shores is a chronic issue. Marine debris results from a 
number of manmade sources, including derelict fishing gear, 
poor solid waste management practices, major storm events, and 
everyday litter.
    In March 2011 a large earthquake struck off the Japanese 
coast, causing a large tsunami and tragically killing or 
displacing tens of thousands of people. While much of the media 
attention rightly focused on this tragic outcome and the 
related situation with the Fukushima Nuclear Power Plant, 
another less reported story was also unraveling.
    The 2011 tsunami washed millions of tons of debris into the 
Pacific Ocean, most of which eventually made its way to the 
Pacific Northwest of the United States. In some of the most 
extreme examples, a 185-ton dock washed up on Washington's 
Olympic Coast, the U.S. Coast guard was forced to sink a 
floating ghost ship off the coast of Alaska before it struck 
the shore, and even a motorcycle was washed ashore in western 
Canada.
    Today my State of Alaska is still dealing with the impacts 
of this event, and one of our witnesses here today will discuss 
his organization's efforts and experiences while cleaning this 
significant debris. In addition to the organizations 
represented here today, there are others in Alaska conducting 
important response and research work, such as the Sitka Sound 
Science Center.
    NOAA has identified a number of hotspots where debris 
accumulate in large quantities due to ocean currents and other 
factors. Mostly in the Pacific, these so-called ``garbage 
patches'' have been known by scientists for years. Yet what is 
less known is the impacts of these debris on marine and land 
based birds, mammals, and other species and their ecosystems. I 
am hopeful that today's hearing will shed some additional light 
on these effects and identify research gaps. While the problem 
of marine debris is apparent there are also no clear answers on 
how to best solve it.
    The United States has taken major steps to address issues 
here at home, and the plastics industry has proactively pursued 
ways to address debris in the marine environment. In Alaska and 
other coastal States most debris comes from foreign sources, as 
evidenced by the volume of materials collected on our shores 
every year bearing labels written in Chinese, Russian, 
Indonesian and many other foreign languages.
    As a result of the tsunami, in 2012 the Japanese 
government--in a remarkable gesture given the enormous 
suffering Japan endured--gifted $5 million to the U.S. 
Government to assist in debris removal and response efforts. 
This one-time infusion of funds supplemented NOAA's modest 
annual congressional appropriation for the Marine Debris 
Program. The authorization for the Marine Debris Program has 
lapsed, but fortunately Congress has continued to fund this 
important work.
    But beyond funding response and clean up work, one of the 
things that we hope this Committee's experts will help us 
address is how can the United States help better encourage 
sanitation and management practices, particularly in developing 
countries, as it relates to ocean debris and what innovative 
ideas exist to solve these problems. These are some of the 
questions we hope will be answered today.
    I am pleased to have a distinguished and diverse panel of 
witnesses here this morning. I want to thank all of you for 
being here.
    Finally, I want to acknowledge and thank Ranking Member 
Whitehouse for his interest in this topic and his encouragement 
to hold this hearing. Although at first glance you might not 
see the similarities between Alaska and Rhode Island, being the 
largest and smallest States in the Union, respectively, we both 
love our oceans. In fact, Rhode Island is the Ocean State and 
Alaska has more ocean coastline than the rest of the United 
States combined, so this issue matters to all of us.
    With that, I will turn it over to Ranking Member 
Whitehouse.

         OPENING STATEMENT OF HON. SHELDON WHITEHOUSE, 
          U.S. SENATOR FROM THE STATE OF RHODE ISLAND

    Senator Whitehouse. Thank you, Mr. Chairman. We got away 
with being the Ocean State by being among the first 13, when 
there was less competition.
    Let me express first my appreciation to you for your 
interest and for this action on the problem of marine debris. 
As you say, Alaska and Rhode Island have many differences. But 
we share a common dependence on and affection for our healthy 
oceans.
    To put it mildly, this Committee does not always see eye to 
eye on the issues under our jurisdiction. But we are on the 
same page today. Some colleagues may try to argue that humans 
aren't causing climate change. But there is no denying man's 
role in the startling amount of plastic trash that now litters 
our oceans and coasts. The problem is pervasive and obvious.
    A Rhode Island example comes from one of the most dangerous 
and demanding sporting events on the planet, the Volvo Round of 
the World Ocean Race, which had a stop in Newport, Rhode 
Island, this past summer. The sailors on those racing vessels 
had seen the world, and they told of a littered ocean. So 
littered, in fact, that they had to make daily debris checks 
for marine debris fouling their keels and slowing down the 
racing boat, even in the far away South Atlantic waters.
    Ocean Conservancy reports that the 2014 International 
Coastal Cleanup took over 16 million pounds of trash from 
beaches around the world. Save the Bay, represented here today 
by Executive Director Jonathan Stone organizes Rhode Island's 
participation in the International Coastal Cleanup. Last 
September over 2,000 volunteers participated in beach clean ups 
in Rhode Island. They collected more than 19,000 pounds of 
trash from our beaches during the single day event, and that is 
just a small snapshot of the bigger problem.
    When plastic enters the water, it never really goes away. A 
study of seabirds found that in 2014, among 80 species studied, 
90 percent of individual birds had plastic in their bellies. 
This albatross is filled with discarded lighters and other 
plastic junk that it mistook for food.
    It is not just birds. Thirteen sperm whales beached 
themselves on the German coast in January with plastic in their 
stomachs, including a 43-foot long shrimp fishing net and a 
large piece of a plastic car engine cover. Leatherback turtles 
are found with stomachs full of plastic bags mistaken for the 
jelly fish on which they feed. Scientists have documented 
harmful plastic interactions in nearly 700 species.
    Marine debris does not have to be eaten to be a hazard. 
Turtles and porpoises and manatees drown or starve in 
entanglements, as do sharks, which must move to breathe.
    Through wave action and UV exposure under the sun, plastics 
continually break down into smaller and smaller pieces. The 
smallest pieces, microplastics, are ingested by a wider swath 
of the food chain, mixing in with plankton blooms and other 
elemental food sources. Plastic is now found in every corner of 
the marine environment, from sandy beaches on rumwood islands, 
to arctic ice cores, to deep sea sediments, to ocean gyres in 
the faraway Pacific.
    Dr. Jenna Jambeck, who is testifying today, found that 80 
percent of the plastic in the ocean originates from land. Each 
year, an estimated 8 million metric tons of plastic waste 
enters the oceans. At present rates, the mass of waste plastic 
in the ocean will outweigh the mass of all the living fish in 
the ocean by the middle of this century. Let me say that again. 
At present rates, the mass of waste plastic in the ocean will 
outweigh the mass of all the living fish in the ocean by the 
middle of this century.
    Over 50 percent of the plastic waste in the oceans comes 
from just five countries: China, Indonesia, the Philippines, 
Vietnam, and Sri Lanka. Their upland waste management systems 
are a failure, so plastic and other trash makes its inevitable 
way to the sea.
    Senator Sullivan and I are both members of the Senate 
Oceans Caucus. Our bipartisan caucus has made marine debris a 
priority issue, and we are determined to make progress. Perhaps 
the present rethinking of the Trans-Pacific Trade Agreement 
will give us a chance to encourage the filthy five marine 
debris countries to clean up their act.
    Thank you again, Chairman, for calling this hearing, and I 
appreciate very much the wonderful panel of witnesses who have 
come here today.
    Senator Sullivan. Great. Thank you, Senator Whitehouse.
    Now I would like to welcome the first witness to our panel, 
Mr. Jim Kurth, the Deputy Director, United States Fish and 
Wildlife Service. You will have 5 minutes to deliver your 
opening statement, and a longer written statement will be 
included in the record.
    Mr. Kurth.

         STATEMENT OF HON. JIM KURTH, DEPUTY DIRECTOR, 
                 U.S. FISH AND WILDLIFE SERVICE

    Mr. Kurth. Good morning, Chairman Sullivan and Ranking 
Member Whitehouse and Subcommittee members. I appreciate the 
opportunity to testify today, and I would note I have had the 
good fortune to live and work for the Fish and Wildlife Service 
in both Rhode Island and Alaska.
    Senator Whitehouse. Rhode Island was more fun, right?
    Mr. Kurth. I am not going to pass judgment.
    Senator Sullivan. I was going to avoid asking you that 
question because I thought it might embarrass my colleague 
here.
    [Laughter.]
    Mr. Kurth. They are both wonderful places.
    [Laughter.]
    Senator Sullivan. Good answer.
    Mr. Kurth. Marine debris ranging from abandoned vessels to 
fishing gear, plastic bags, balloons, food wrappers, and many 
other consumer products is a pervasive threat to the world's 
oceans. It injures and kills wildlife, degrades habitats, 
interferes with navigation, and costs communities, fishing and 
maritime industries millions of dollars annually. In addition 
microplastics created by the breakdown of bottles, bags, and 
other larger debris, as well as the toxic chemicals they 
contain, pose a risk to human health as they accumulate in the 
marine food web.
    Up to 80 percent of marine debris originates on land: the 
litter sucked into storm drains or blown into waterways, to 
stray garbage from landfills, and small particles discharged 
from industrial operations. It injures and kills wildlife for 
many miles inland on its journal to the ocean.
    Other debris is generated at sea from lost fishing 
equipment and vessels, cargo containers swept overboard and 
illegal dumping. Large storms and tsunamis can also deposit 
enormous amounts of debris into coastal areas and deeper 
waters.
    At Edwin B. Forsythe National Wildlife Refuge in New 
Jersey, a storm surge from Hurricane Sandy in 2012 scattered 
tons of debris over a 22-mile stretch of beaches, salt marshes, 
and forested areas. It took months to remove the debris, which 
included downed trees, construction materials, appliances, 
glass, trash, and over 175 boats from nearby marinas, many of 
which leaked fuel and other contaminants. More debris was swept 
out to sea when storm surges receded.
    As a former wildlife refuge manager I have seen the impacts 
of marine debris. It is heartbreaking to see a sea turtle dead 
from ingesting a plastic bag it thought was a jelly fish, or to 
find a dead albatross chick with her stomach filled with 
plastics.
    The Fish and Wildlife Service works through its coastal 
refuges and friends groups to mobilize local communities for 
the International Coastal Cleanup each September, an event that 
helps raise public awareness while removing significant amounts 
of debris.
    Midway Atoll National Wildlife Refuge provides nesting 
habitat for nearly 3 million seabirds, including endangered 
Laysan ducks, albatross, and 19 other seabird species. Hawaiian 
monk seals, green sea turtles, and spinner dolphins frequent 
Midway's coral lagoons.
    The island memorializes one of our Nation's most important 
naval victories. Unfortunately, albatross and other seabirds 
gathering food for their chicks carry over 5 tons of plastic 
back to Midway each year. The stomachs of nearly all the dead 
chicks we see on Midway contain plastics, including cigarette 
lighters, parts of toys, fishing gear fed to them by their 
parents.
    We partner with NOAA and the Coast Guard to remove between 
5 and 10 tons of debris at Midway and the Northwest Hawaiian 
Islands annually. We have removed nearly 1 million pounds of 
shipwrecks at Palmyra Atoll and Kingman Reef National Wildlife 
Refuges. The iron from these wrecks was fueling the growth of 
invasive organisms, smothering some of the Islands' pristine 
coral reefs. With the shipwrecks gone now, these reefs are 
beginning to recover.
    The 3.4 million acres of the Alaska Maritime National 
Wildlife Refuge provide essential habitat for some 40 million 
seabirds, over 30 species. We have engaged with Pribilof 
Islanders to work with fishermen to remove nets and other 
debris from fur seal rookeries, and we supported clean up 
efforts in the Aleutians, along the Alaska Peninsula, and in 
the Gulf of Alaska.
    At Kodiak National Wildlife Refuge a Youth Conservation 
Corps crew pulled more than 15,000 pounds of debris off the 
beaches of Halibut Bay a few summers ago. Efforts like these 
are important, but they are a short-term fix. These beaches and 
hundreds of miles of other beaches, marshes, and other coastal 
habitats nationwide start accumulating debris again at the next 
high tide. We focus on public education because we don't have 
the staff or resources to regularly patrol and clean up most 
areas.
    This brings me to my main point: The scale and complexity 
of this problem outstrips the ability of any agency or nation 
to address alone. Stopping debris at the source is vital, and 
we can't do that unless we work with public and private 
partners at a local scale with a global focus.
    Through the Federal Interagency Marine Debris Coordinating 
Committee we are working to implement a government-wide 
comprehensive approach focused on source prevention. The future 
of marine wildlife depends on our success.
    Thank you for the opportunity to testify. I look forward to 
working with you in the future to address this issue.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Kurth follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Senator Sullivan. Thank you for that opening statement. I 
appreciate the fact that both in your remarks and Senator 
Whitehouse's remarks you emphasize the importance of volunteer 
communities throughout the country, really, that are focused on 
that.
    Let me start my questions by asking about the role of the 
Fish and Wildlife Service. Again, I want to thank the Commerce 
Committee, of which I am a member, which oversees NOAA and 
Oceans, and I appreciate Chairman Thune and Ranking Member 
Nelson for being flexible to allow us to hold this hearing 
here.
    As you know, Mr. Kurth, NOAA is the Federal agency that is 
primarily responsible for being focused on oceans, but many of 
the species that are managed by the Fish and Wildlife Service 
are negatively impacted by marine debris.
    What authorities or additional things can your agency do 
with Congress's help to better allow the Service to respond to 
this issue, of course keeping in close coordination with NOAA?
    Mr. Kurth. Mr. Chairman, we rely on an essential 
partnership with NOAA to address these resources. The area 
where we perhaps have the most interest is in our ocean and 
national wildlife refuges and marine monuments. One of the 
authorities we lack, that NOAA has and the National Park 
Service has, is to recover damages when national wildlife 
refuges are injured.
    For example, I mentioned the ship wrecks at Palmyra Atoll. 
Now, while those wrecks occurred prior to becoming a refuge, so 
the case isn't precisely the same, had that happened today we 
have no authority to recover civil damages for the effects of 
that shipwreck on the reef.
    In the President's budget request he transmitted a proposal 
called the Refuge Resource Protection Act that would give us 
precisely the same authority that our sister agencies have to 
recover damages from third parties when we are injured by them. 
That is an important authority that we are lacking.
    But once again, this is an important partnership that we 
can't do on our own without NOAA and the help of the Coast 
Guard and others.
    Senator Sullivan. Let me ask a related question. You 
mentioned that Fish and Wildlife Service is a member of the 
Interagency Committee on Marine Debris. Can you explain to us a 
little bit more of the work of the Committee and whether you 
think it is an effective venue for coordinating the broader 
Federal Government's response to these issues?
    Mr. Kurth. I am not an expert on that Committee, Mr. 
Chairman.
    Senator Sullivan. Have you been to any of the meetings or 
anything?
    Mr. Kurth. No. I am not a member of that Committee.
    Senator Sullivan. But Fish and Wildlife is a member?
    Mr. Kurth. Yes. And it is reflective--in my statement I 
mentioned that none of us can handle this alone; it requires 
all of the people with an interest in ocean and all the 
landowning agencies, the regulatory agencies that have tools to 
bring to the table to work together, and I think that is the 
focus of this Committee is it is not a problem that anybody 
alone can solve, and we have to bring all of the tools that we 
have in the toolbox together.
    Senator Sullivan. Let me ask a question on the science. Do 
you think that the Federal Government and the scientific 
community have a sense of the impact of marine debris ingestion 
on wildlife and the broader food chain? Some of the statistics 
that Senator Whitehouse just mentioned in terms of how much is 
ingested is really stunning.
    Do you think we have a good understanding of that from a 
scientific community? And what steps should the Service be 
taking to broader the understanding, particularly to science, 
of these issues?
    Mr. Kurth. I think that we know a great deal, but I also 
believe that the ocean is our last unexplored part of our 
planet, that there is so much about the ocean environment that 
we have yet to learn. The Service works in partnership with 
others.
    For example, at Palmyra Refuge we have the Palmyra Research 
Consortium that includes NOAA, many of our major oceanographic 
research institutes to look at those core reef ecosystems in 
the nearby ocean waters to learn about how the ocean is 
changing and the effects of a changing world on the ocean 
environment there. There is a great deal that still is to be 
learned about the ocean and this topic.
    Senator Sullivan. And finally, I think this will be a topic 
for the next panel as well, but as I mentioned in my opening 
statement of course we can always do a better job on this as a 
country. But a lot of the debris, as Senator Whitehouse 
mentioned, comes from other countries. What are your 
recommendations that we can do working with other countries on 
this topic? Literally, my State is the recipient of their 
pollution, and I think there has to be a deeper way in which we 
can address this with these other nations because it certainly 
seems like a core element of the problem.
    Mr. Kurth. Well, I think you are right, perhaps this next 
panel will know more. I think we need to be engaged with the 
world because so much of this is about education. I think that 
in the developing world they don't necessarily have any idea 
what happens to the plastics and other debris that goes into 
the rivers and out into the ocean. There are limited resources 
in many of those places, but it is going to take a concerted 
effort of research, of education, engagement, and then the 
development of technologies that can more effectively deal with 
this.
    Senator Sullivan. Senator Whitehouse.
    Senator Whitehouse. Thanks, Chairman.
    Thanks, Mr. Kurth, for being here. You mentioned the 
albatross, and I don't want to anthropomorphize too much, but 
when you think how far the mother albatross has to travel in 
order to collect food to feed the chicks, I think that they 
have been banded and tracked, and they have thousands of miles 
that they travel. They skim the surface of the ocean looking 
for food, and a lighter looks a fair amount like a squid to 
them, so they come back to where the chicks are and regurgitate 
up what they have picked up.
    That is how you get these pictures of the little albatross 
chicks starving to death with stomachs full of plastic. And 
sometimes it helps, I guess, when there is an image like that 
in people's mind to trigger their sympathies.
    But I think it is also important that we understand the 
scale of this problem as well, and I wanted to ask you, within 
Fish and Wildlife which are the programs that engage the most 
with the marine debris problem, and how engaged are they from a 
budget point of view? And if that is too complicated a question 
to answer right in our next few minutes, could you make that a 
question for the record? Just give me a little layout.
    Mr. Kurth. Sure. It is a complicated question. Certainly, 
our national wildlife refuges, our migratory bird program, our 
marine mammal program all have interest in this topic. And you 
are exactly right, these species range quite far.
    I had the good fortune a couple of summers ago to be on our 
research vessel TECLA in the Aleutian Islands. They were 
feeding albatross there. I asked our crew, where are those 
birds coming from, and they said Midway Atoll. And I said, 
there is no way. I said, that is over 1,000 miles away. And the 
response was that is the closest land, it is the closest 
nesting site.
    So those birds use an enormous area of ocean water, and it 
is remarkable how they find things like a cigarette lighter. It 
is amazing how many cigarette lighters there are in the ocean, 
and it is heartbreaking.
    But whether it is the albatross or petrels or sea lions or 
other things, turtles, the impact from marine debris is part 
and parcel to what all of us in Fish and Wildlife Service care 
about. I would be happy to expand on that in the record.
    Senator Whitehouse. And we see these pictures of the dead 
baby albatrosses with their stomachs filled with lighters and 
other trash, and we see the pictures of marine mammals that are 
entangled in netting or other things and have drowned or 
starved. But it is harder to see the microplastic as it breaks 
down and gets to the level of almost molecular plastic. Could 
you talk a little bit about what Fish and Wildlife is doing to 
look at the effects of that as it enters the food chain?
    Mr. Kurth. More of the science that would be done by that 
by the Government would be done by NOAA. As the Chairman 
mentioned they really are the principal ocean research agency. 
We are more focused on our marine national monuments and 
refuges and on the species that we have jurisdiction for.
    Senator Whitehouse. Are you seeing any uptake through that?
    Mr. Kurth. The literature clearly indicates that, and I 
think your next panel will have some experts that can give you 
more information, and I can supplement for the record with some 
of the additional things that the Service is concerned about.
    Senator Whitehouse. And the vast majority of vessels that 
might dump or wreck on marine areas that you protect are 
insured, so to ask them to pay their price for what they have 
done, I gather you are the only Federal agency with 
responsibility for Federal property that doesn't have the right 
to sue for civil damages when people harm your resource?
    Mr. Kurth. Well, I can't say we are the only one, I 
wouldn't know.
    Senator Whitehouse. Compared to the Park Service.
    Mr. Kurth. Yes, the Park Service has it, NOAA has it, the 
Bureau of Land Management has these authorities.
    Senator Whitehouse. Yes.
    Mr. Kurth. And it just seems reasonable in these difficult 
financial times, when we don't have enough resources to do 
things, that if somebody damages the property of the United 
States they would be liable to pay for those damages. We just 
simply don't have that statutory authority in the national 
wildlife refuge system.
    Senator Whitehouse. Well, if you could summarize for me as 
a question for the record what the most significant ways are 
that your organization engages with the marine debris problem 
and how much budget connects to that, and also other than this 
recommendation for the authority to pursue civil damages, what 
your top five recommendations for the Committee would be.
    Mr. Kurth. I would be happy to do that, Senator.
    Senator Whitehouse. Thanks, Mr. Kurth. I appreciate it.
    Senator Sullivan. Senator Boozman.
    Senator Boozman. Thank you, Mr. Chairman. Again, thank you 
for holding a really very important hearing. I am from a 
landlocked State in regard to oceans but certainly understand 
the importance and the economies of many States. Tourism is 
built on people from Arkansas going to the ocean.
    But I want to follow up a little bit on the Marine Debris 
Coordinating Committee. You mentioned that you hadn't really 
attended the meetings.
    Mr. Kurth. Generally, the Committee is attended by the 
people who are more focused on that topic. Unfortunately, I am 
in more of an administrative role.
    Senator Boozman. I understand.
    Mr. Kurth. And I am not the expert that I used to be.
    Senator Boozman. But you all are active?
    Mr. Kurth. Yes.
    Senator Boozman. Good. Is that a good vehicle? Is it an 
area that we as a Committee should press?
    Mr. Kurth. It is essential in this day and age that 
Government agencies collaborate and we don't duplicate. None of 
us have the resources to do it all by ourselves, so any 
mechanism that allows us to share science, to inform each other 
of our work activities, to get synergies out of our agencies' 
mission is an important thing.
    Senator Boozman. As I saw the pictures and things, Senator 
Carper and I are co-chairs of the Recycling Caucus, and 
recycling plastic can result in energy savings up to 87 percent 
and keep the plastic out of the ocean. So it really does 
highlight some of the efforts that we are trying to make there, 
to do that.
    Also, that is perhaps something that we can help some of 
our overseas entities that aren't doing as good a job to 
collaborate and show them how they cannot only clean the oceans 
up, but also it is good for them, good for their economy.
    Mr. Kurth. Absolutely. I think the United States has long 
led in the development of cost effective technologies for 
recycling, and to the extent that we can export those to the 
developing world it will certainly help in this regard.
    Senator Boozman. Very good.
    Thank you, Mr. Chairman.
    Senator Sullivan. Thank you, Senator Boozman.
    I had a few other follow up questions, and I know Senator 
Inhofe was interested in following up with some questions as 
well.
    But let me go back to an issue that I don't think is 
uniquely Alaskan, but we certainly have a big challenge with 
it, and that is the instance where owners of abandoned and 
derelict vessels are on the shores of different States. 
Certainly in Alaska there are a lot of these; they are unable 
to be identified, so nobody is able to be held accountable for 
their recovery.
    In this kind of instance, which we have a number of these, 
do you have any ideas of what can be done to clean up this kind 
of debris? It is not necessarily the debris that is getting 
into the digestive systems of animals, but it is still a 
significant problem, and it is a big problem in Alaska.
    Mr. Kurth. I wish I did have an answer, Senator. When I 
worked in Alaska we had a derelict vessel offshore of the 
Arctic Refuge where I worked, and it had been there for 
decades. No one quite really knew what to do about that. I 
think it is something that we are going to all have to come 
together and find out; when there is not a responsible party 
how do we work together with the affected States and with 
government agencies that have authority, because it is a 
problem that doesn't have a ready answer, at least to my 
knowledge.
    Senator Sullivan. So there is always the issue of, well, we 
can just fund clean up on that, and of course that is one way 
to look at it. As you know, all agencies' budgets are kind of 
stretched.
    The one area that I have thought about on this topic that 
seems to have some potential is that there are so many 
motivated volunteers to help with the clean up. Are there 
authorities or ways in which we can encourage that to make sure 
that they are encouraged or kind of a Good Samaritan kind of 
situation in terms of the law, where if someone is going out, 
trying to do good work, if something happens, that they are not 
going to be held liable for any mistakes? Are there things that 
we can be doing, more innovative, more--as you mentioned--
public-private partnerships that we can do in this regard that 
can help an issue like that that is not just about, you know, 
more funding?
    Mr. Kurth. Volunteers are at the heart of how we have been 
able to do most of the clean up activity where there is not a 
responsible party. I think that we have the authority and the 
Fish and Wildlife Service has over 40,000 volunteers. On our 
national wildlife refuges, they accomplish approximately 20 
percent of all the work that gets done in the national wildlife 
refuge system. And Congress several years ago did pass the 
Volunteer and Community Partnership Enhancement Act that gave 
us authority to hire volunteer coordinators.
    But you are right, the effects of budget cuts have hurt. 
Over the last few years we saw our volunteer numbers go down 
because we have lost the capacity and some of these 
coordinators to do it. It is one of the most cost effective 
investments that we can make, is to make sure we have people 
that can coordinate volunteer work and use it as a force 
multiplier for the limited staff we have. We have partnerships 
with volunteers and community groups in almost every aspect of 
what we do on the Service.
    Senator Sullivan. Let me ask one final question on the 
foreign country issue. What programs does Fish and Wildlife 
Service have currently where you engage with other countries, 
particularly some of the countries that Senator Whitehouse 
noted in his remarks?
    Mr. Kurth. We have a very robust international conservation 
program, but it is focused more on the trust species we have 
and then on illegal wildlife trade. We work a great deal in 
Africa interdicting trade in elephant ivory and rhinos. We work 
with people that are illegally taking sea turtles and entering 
them into interstate commerce, with migratory birds.
    But many of those countries in the developing world, the 
marine debris issue has not been the focus of our work. We work 
closely with China on any number of things, on wetland 
conservation, giving them technical assistance on rivers and 
protected areas, but the management of solid waste onshore 
really isn't the mainstay of the Fish and Wildlife Service's 
expertise.
    Senator Sullivan. OK. Thank you.
    Senator Gillibrand.
    Senator Gillibrand. Thank you, Mr. Chairman.
    I am sure you are aware of the problems that Long Island 
and New York City face in terms of managing their solid waste 
and preventing contamination into our waterways. When Hurricane 
Sandy hit we faced flooding and contamination on a scale that 
we have never seen before in our area.
    What can all of us learn from that situation, and how can 
we improve our resiliency so the consequences of a natural 
disaster are not solid waste garbage contaminants floating in 
our waters? What have you found to have been successful?
    Mr. Kurth. I think that when we look at coastal resiliency 
we have to balance how we harden infrastructure and how we 
utilize green infrastructure. We saw in many of the coastal 
areas that we manage--I mentioned Forsythe Refuge in New 
Jersey, where those coastal wetlands and the green 
infrastructure helps to attenuate storm surge and builds 
resilience in the ecosystems. The wetlands in Delaware at Prime 
Hook Refuge are another example.
    So there is certainly in places like New York City hardened 
infrastructure as part of the equation, but where we can have 
more natural coastal features, those dunes, those coastal 
wetlands, they attenuate the effects of storm surges. It is not 
a solution everywhere, but we have been very fortunate to have 
significant funding after Hurricane Sandy to build resilience 
back into some of the coastal environments that we managed, and 
we think that is one component of an effective strategy for 
coastal resilience.
    Senator Gillibrand. An unrelated question, but I know that 
you are an expert on this. I wanted to get your views on an 
important decision that the State of New York is having right 
now with regard to Plum Island. Many of my constituents on Long 
Island and I support the idea of turning it into a wildlife 
refuge in order to conserve this piece of land for future 
generations. With your extensive background with the refuge 
system, can you speak to the value and benefits of creating a 
refuge on a location such as Plum Island?
    Mr. Kurth. We are a cooperating agency in the environmental 
impact statement that is looking at that. As you know, there is 
a lot of infrastructure and potential contamination at Plum 
Island, so we are encouraged to continue to working with folks. 
But the Service is always cautious if we bring a unit into the 
refuge system that issues that might relate to physical 
infrastructure that is remaining or contaminants are addressed 
before it would be appropriate to be a refuge. So we continue 
to be engaged in and work on that study looking at the options 
for how we can repurpose that and include conservation as a 
purpose for Plum Island.
    Senator Gillibrand. Another area I am interested in--I 
don't know if you have expertise in, but one of the concerns 
about marine pollutants is that plastics are broken down into 
microplastics, produce pollutants in the environment, and often 
animals digest these toxic plastic pieces unknowingly and make 
them sick and develop other issues. We had this issue with 
microbeads, and we were successfully able in Congress to ban 
them because it had so many horrible effects for killing fish 
in a lot of our rivers and water bodies.
    So how can these plastic and toxic pollutants affect the 
health of marine life and the food chain that rely on them, 
ultimately affecting humans?
    Mr. Kurth. Well, it is just not those microbeads, but it is 
also the deterioration of other plastics as they break down 
that are ingested, and they accumulate in the marine food 
chain. And you are right; I confessed earlier that I am not an 
expert on those subjects, and I think you have some folks 
following me on the next panel that maybe can get more into the 
deeper science of it.
    Senator Gillibrand. Thank you.
    Thank you, Mr. Chairman.
    Senator Sullivan. Senator Markey.
    Senator Markey. Thank you, Mr. Chairman. Thank you for 
holding this hearing.
    Can you talk a little bit about ghost fishing and the 
effect from the fishing industry and what the steps are that 
can be taken to reduce the likelihood of derelict fishing gear?
    Mr. Kurth. Yes. Ghost fishing is a term that is used for 
the take of fish or shellfish after fishing equipment is either 
abandoned intentionally or somehow gets washed overboard, and 
it is very significant. I think that it is localized, so for me 
to quantify it for you would be geographic specific and perhaps 
more than I can do. But whether it is lobster traps or crab 
traps or fishing nets, it continues to fish 24/7 for years and 
years on, and the amount of marine life that it takes from the 
sea is very significant.
    Senator Markey. OK. And how does that ultimately, then, 
affect the fishing industry from your perspective?
    Mr. Kurth. Well, every fish or shellfish that is caught by 
derelict fishing equipment is a fish that isn't caught and the 
profit not returned to a commercial fisherman as part of the 
allowable catch for those. So it is a significant resource that 
is basically being wasted, where there is no return for the 
fisherman. It is simply a waste of a resource.
    I think it is a great example of a type of marine debris 
that doesn't pop into people's mind. They think of the sea 
turtle with the six-pack or the plastic bag they have ingested, 
or the cigarette lighter in the albatross, and they don't think 
about these derelict fishing gear out there continuing to take 
and waste shellfish and fish for years and years.
    Senator Markey. OK. A few years ago watermen in the 
Chesapeake Bay region were paid to clean up derelict crab pots. 
Is there an opportunity to engage the fishing industry in 
cleaning up debris to improve the health of fisheries which 
they depend upon?
    Mr. Kurth. Well, absolutely. I think watermen in Chesapeake 
Bay and people that fish for a living throughout the country 
oftentimes are amongst the most knowledgeable people about 
those marine ecosystems. Obviously there is a cost to that, and 
it is something that I think that we need to look to find 
effective partnerships. I think some of the people that will 
follow me will talk about how some of the various organizations 
out there are at the heart of some of those partnerships, and 
certainly government agencies can help facilitate that as well.
    Senator Markey. In your testimony you discuss successful 
marine debris educational outreach programs. Could you describe 
what one of those programs might look like?
    Mr. Kurth. I love the example I used earlier of the 
Pribilof Islands because it is this remote place with people 
whose whole life and tradition is tied to the sea, and they 
know and they are responsible for, and with a little 
facilitation and explanation, go out there and get the derelict 
fishing nets out of those fur seal rookeries. Some of the most 
important fur seal places in the world.
    That is one end of the spectrum, and we can go right to 
Rhode Island Beach, where we get school kids out there helping, 
perhaps not removing tons of things, our YCC crew in Kodiak. 
Maybe 15,000 isn't going to change the world, but they learn 
about the issue; they become engaged conservationists. They 
care, and they can help spread that message of prevention and 
reuse and recycle to others in their communities.
    Senator Markey. So thank you for helping to focus us upon 
these issues. We are just now at the fifth anniversary of the 
disaster which the tsunami caused at Fukushima and the amount 
of manmade debris that went into the ocean and traveled 4,000 
miles, still traveling. So your ability to help us to focus 
upon this rising phenomenon of manmade debris in the ocean is 
just so important, so we thank you for that.
    Mr. Kurth. Thank you, Senator.
    Senator Markey. Appreciate it. Thank you.
    Senator Sullivan. Chairman Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman.
    Director Kurth, as I mentioned to you earlier I have one 
major interest in this area. For 20 years I was a builder and 
developer in an area called South Padre Island, Texas. There 
are some areas other than the East Coast and Alaska that have 
beaches. It is unique with its ridley sea turtle. There are 
only a few places in the world where they come in, and they 
actually lay their eggs to go back and come out, and then the 
little critters get out, and they have to try to make their way 
out.
    Now, one is north of Vera Cruz; one is just a little bit 
north of South Padre Island. That's an incorporated town. The 
island--you are familiar with it, others may not be--is 
actually 140 miles long and four blocks wide, so you can only 
build on the southern tip of it. But there is one area just 
north of that where they do come in. Nobody knows why. And just 
like north of Vera Cruz. Well, there is a lot of value, of 
course, to two sources there. One is to get the mother when she 
comes in to lay her eggs, because they can predict pretty much 
when it is, and then get the little ones going back out.
    There is a lady whose name is Ila Loetscher. She was the 
Turtle Lady, referred to as the Turtle Lady, and about 40 years 
ago I would work with her. I would actually go down and sit out 
all night long. We would rotate around on watches to keep 
people from getting them as they are coming in, the value of 
the leather and all that. And she lived to be 100 years old, 
and she was active. Now I think it is her granddaughter down 
there is doing the same thing.
    Anyway, I am kind of hooked into that thing, and I am 
concerned because this has a direct effect. Now, what I would 
like for you to do is say what are things that we can do. This 
is protect and there is a lot of interest in there, but also 
there is a lot of damage that is done not just by the predators 
that are waiting to get them, but by debris and things like 
that.
    I was down there about 3 weeks ago, and they had one tub 
that had a turtle that did survive. It had ingested a plastic 
bag, I guess it was, and I know this is just a handful. There 
have been a lot of issues, turtle excluders on fishing boats 
and all that. But what do you know about that particular 
species, and what we can do, and what you can do to be of help 
in that protection?
    Mr. Kurth. Well, Senator, there is nothing that causes me 
greater fear than to think that a U.S. Senator may know more 
about this than I do. No, I think that the Kemp's ridley sea 
turtle is one of a number of turtles that do nest along the 
Gulf of Mexico. You are exactly right to be fascinated about 
why these creatures pick certain spots. I am happy that there 
are still some things that science doesn't really understand. 
It will give a new generation the opportunity to learn and 
explore the oceans in ways that we haven't quite figured out 
yet.
    But to protect, there are so many aspects of that. One is 
to have secure habitat; the other is to make sure that there is 
not too much disturbance, whether that is from predators or 
from inconsiderate people. I was a Federal wildlife officer for 
the better part of a dozen years and remember patrolling 
beaches in Florida and seeing teenagers flip sea turtles upside 
down, which is a death knell, and that is just ignorance. That 
is something that education has to go to.
    There are other things that we don't think about. Sea 
turtles, when they hatch, they are going to go to the water. 
But if there are lights around, they are drawn to that. So we 
have worked with resorts and restaurants on beaches to have 
different kinds of lights, different kinds of direction, or 
turn the lights off during that time of year when sea turtles 
are hatching. There are just all these different facets that go 
into the protection of that creature.
    The great thing about sea turtles is I have never met 
anybody who doesn't like them and isn't fascinated. If you sit 
on a beach and see one of those creatures crawling out of the 
ocean in the middle of the night, and going up there and 
digging its nest and laying eggs, it makes you think there is a 
whole bunch about this world that maybe we don't fully 
understand.
    Senator Inhofe. And particularly those critters, because 
they teach them to clap, and they show and demonstrate 
affection. I mean, this is pretty amazing.
    I wonder if a good third option there would be really 
education so people know about this. If enough people do then 
they would make their own force. That is what happened down 
there in that particular isolated area. They became very 
sacred. But again you have the kids turning them upside down 
who don't know any better.
    Mr. Kurth. And there are things that go along with 
communities caring. Just learning simple things about how to 
secure your garbage. Senator Sullivan has it with bears in 
Alaska. You secure your garbage; otherwise, you are going to 
have them around. And we don't need more raccoons around turtle 
nesting beaches because they are pretty efficient nest 
predators, so we just need to do more so communities understand 
the resources they have on their beach. And that is one of the 
few things it is not hard to get people to care about, and they 
will work with us once they understand the simple things that 
they can do to make a difference.
    Senator Inhofe. And there are so few areas where they 
habitat.
    Mr. Kurth. Yes.
    Senator Inhofe. Well, anyway, thank you.
    Mr. Kurth. Well, I appreciate your interest, Senator.
    Senator Sullivan. Well, thank you, Dr. Kurth, for your 
excellent testimony.
    I am going to ask the second panel to come to the dais.
    Mr. Kurth. Thank you, Mr. Chairman.
    Senator Sullivan. I am going to welcome Mr. Chris 
Pallister, who is the President and Co-Founder of Gulf of 
Alaska Keeper; Dr. Jenna Jambeck, who is Associate Professor of 
Environmental Engineering at the University of Georgia; Mr. 
Nick Mallos, who is the Director of Trash Free Seas Program at 
the Ocean Conservancy; and Mr. Jonathan Stone, who is the 
Executive Director of Save the Bay.
    You will each have 5 minutes to deliver your oral 
statement, and a longer written statement, if you wish, will be 
included in the record of this hearing.
    Mr. Pallister, we will begin with you. You have 5 minutes 
to deliver your statement.

            STATEMENT OF CHRIS PALLISTER, PRESIDENT 
             AND CO-FOUNDER, GULF OF ALASKA KEEPER

    Mr. Pallister. Thank you, Mr. Chairman and members of the 
Committee, for inviting Gulf of Alaska Keeper to participate in 
this important discussion.
    GoAK members started large scale marine debris clean ups in 
2002. In 2006 we organized as a 501(c)(3) nonprofit to tackle 
the marine debris problem in the Gulf of Alaska. Over 9 years 
Gulf of Alaska crews removed 1.5 million pounds of plastic 
debris from 1,500 miles of relatively protected Gulf of Alaska 
shorelines.
    In the past 3 years GoAK's efforts have focused on the more 
remote and rugged outer coasts where debris densities range 
between 10 and 30 tons of plastic debris per mile. In 2015 GoAK 
and partners collected an additional 1 million pounds of 
plastic from approximately 50 miles of that shoreline. Clean up 
costs on these remote beaches can surpass $100,000 per mile. 
Thousands of miles remain to be cleaned.
    GoAK's marine debris work has received significant support 
from Federal and State agencies and the Government of Japan. 
There is no long-term dedicated funding. Consequently, clean up 
projects cannot be properly planned. GoAK is the most active 
Alaskan marine debris clean up organization and the only one 
whose primary focus is on marine debris remediation and 
removal. GoAK also conducted an extensive marine debris 
monitoring program, and with the College of William & Mary and 
the University of Alaska, researches the biological impacts on 
marine wildlife caused by noxious chemicals leaching from 
plastic marine debris.
    An astounding amount of marine debris covers the Alaska 
Coast. Countless shipwrecks, immense quantities of creosote 
treated piling and power poles, loads of treated lumber, 
massive metal fuel tanks and steel drums litter the shoreline. 
However, the most insidious debris is the vast quantity of 
plastic that blankets large swaths of the Gulf of Alaska coast. 
In a triage forced by limited resources GoAK focuses on plastic 
debris removal.
    Plastic marine debris has several main sources. Over 50 
percent of the plastic debris by weight on Gulf of Alaska 
beaches is derelict fishing debris such as lines, nets, fish 
totes, plastic pallets, crates, baskets, pot gear, buoys, and 
among the deadliest of all, packing bands. Consumer products 
ranging from tiny plastic cosmetic beads to large appliances 
vastly outnumber all other plastic debris.
    Natural disasters such as floods, typhoons, and tsunamis 
inject millions of tons of plastic debris in the western 
Pacific, much of which ends up on Alaska's shores. Polystyrene 
and polyurethane plastic foam are 30 to 40 percent of the 
debris by volume.
    Most foam debris is from structures destroyed by natural 
disasters, but a sizable component is from freezer holds of 
sunken fishing vessels, lost refrigerated shipping containers, 
cargo spills, aquaculture buoys, and deliberate dumping. 
Shipping container spills and shipwrecks add tons more hard 
plastic debris.
    Plastic marine pollution is one of the most significant 
environmental issues of our time. Wherever scientists search in 
the marine environment they find plastic debris or the chemical 
signature of plastic components. Plastic marine debris extends 
from the ocean floor to the surface. Every coastal shoreline 
has a fringe of plastic debris from sub-micron particles to 
giant blocks of polyurethane or styrene foam.
    Monstrous pools of plastic debris circle in giant mid-ocean 
gyres, spewing out shore bound debris when disturbed by storms. 
Nearly all marine organisms tested by scientists contain 
plastic particles or carry a biological load of harmful plastic 
chemicals. From the tiniest plankton to the greatest whales 
plastic marine debris is exacting a largely unrecognized but 
terrible environmental toll.
    As scientists increasingly link the ingestion of plastic 
chemicals with harmful health impacts, plastic debris 
potentially threatens the viability of commercial fisheries. 
Consumption of plastic tainted seafood and subsistence 
resources such as contaminated seabirds and their eggs 
threatens human health. Alaska's fisheries, among the world's 
most productive, will likely suffer devastating environmental 
and economic blows from plastic debris unless there is a 
change.
    While the entire marine environment suffers from this 
manmade catastrophe, the Gulf of Alaska's rich coastal 
ecosystem has been hurt much more than most. China, Thailand, 
the Philippines, Vietnam, and Indonesia are the five countries 
responsible for the greatest contribution to the marine debris 
problem. All these countries fringe the South China Sea or abut 
the Western Pacific and are the countries that buy most of our 
cheap plastic goods.
    Due to an unfortunate confluence of currents, storms and 
geography the Gulf of Alaska's expansive coast receives a 
massive amount of discarded plastic debris from these 
countries. However, while these countries and natural disasters 
are responsible for approximately 90 percent of the consumer 
plastic debris by volume on Alaska's beaches, remember that 
commercial fishing is responsible for at least 50 percent of 
the weight of plastic marine debris on our coast.
    There are no rational options other than to confront the 
marine debris problem; it is an international issue and in the 
case of Alaska a problem that originates in foreign countries 
or from offshore fisheries largely controlled by foreign or 
Lower 48 fishing companies. Clearly MARPOL Annex V, the 
international treaty that bans plastic dumping on the ocean, 
must be strengthened and its prohibitions strongly enforced. 
There is virtually no enforcement now.
    The preventable sources of marine debris such as poor 
onshore waste management, intentional dumping, harmful 
commercial fishing practices, and reckless commercial shipping 
can be addressed through education and the imposition of taxes 
and fines to internalize the cost of removing derelict fishing 
gear or lost shipping cargo.
    However, marine debris will always be a problem because of 
natural disasters, container spills, and shipwrecks. Sustained 
support for aggressive industrial scale debris removal is 
critical. All Federal and State land management agencies with 
coastal habitat must include funding for maintenance clean ups 
in their annual budgets. They must not have the discretion to 
ignore this issue. Plastic debris cannot continue to pile upon 
coastal habitat. It is not inert; it will pollute and harm 
sensitive habitat and wildlife for generations.
    The Federal Government must take the lead by facilitating 
an international response and providing significant funding to 
remove debris that has already landed on our shores. 
Conservatively it will take at least $100 million to clean the 
most heavily impacted Alaskan shorelines. We recommend that 
additional Federal money for marine debris removal be directly 
granted to State agencies such as Alaska's Department of 
Environmental Conservation.
    Thank you.
    [The prepared statement of Mr. Pallister follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Sullivan. Thank you, Mr. Pallister.
    Dr. Jambeck, you are next.

      STATEMENT OF JENNA JAMBECK, ASSOCIATE PROFESSOR OF 
        ENVIRONMENTAL ENGINEERING, UNIVERSITY OF GEORGIA

    Ms. Jambeck. Thank you, Chairman Sullivan, Ranking Member 
Whitehouse. It is truly my honor to be here and my privilege.
    What has become evident as I have conducted my research, 
sailed across the ocean sampling plastic, and visited beaches 
where plastic is washing up onshore with every wave is that our 
plastic trash is everywhere. We have heard already you find it 
in the deep sea and the floating polar ice, from the open ocean 
gyres to our favorite beaches.
    So why do we care about plastic in the ocean? Well, as we 
have heard already, a lot of implications for wildlife. It 
entangles whales and seals, it fills the stomachs of our 
turtles and our albatrosses, and infects even the tiniest 
animals in our food web.
    Plastics also do not biodegrade, so we have heard they 
fragment. This is what you find on the beach, and it starts to 
degrade into smaller and smaller particles. This is what washes 
up on the shore on the beaches and some of the microplastic, 
and then this is what we pull out of the open ocean. It is 
about the size of a tip of a pen.
    So in order to respond to the scale of this problem we need 
to understand how much is going into the ocean and our aquatic 
systems each year. One source from the land is mismanaged 
waste, and that is made up of litter and inadequately managed 
waste. A portion of this plastic waste is then blown or washed 
into our waterways.
    So once plastic enters our ocean, it is not visible; it is 
70 percent of our planet so in some cases we don't see it; it 
looks pristine, even. But to understand the potential risk to 
our oceans we need to understand exposure and impact. Our 
research informed the exposure side of this equation, so how 
much plastic is entering the ocean every year. But it also made 
us ask where is all the plastic going.
    So in our last year publication in Science we estimated 
that 8 million metric tons of plastic entered the oceans in 
2010. This is equal to a volume of five grocery size bags 
filled with plastic for every foot of coastline in the world. 
So if we see business as usual, so in a projection scenario 
where we see increasing plastic consumption and population 
growth, we see this doubling by 2025, to 17 million metric tons 
and a cumulative input of 155 million metric tons.
    So getting the plastic out of the ocean once it is there 
has a lot of logistical and economic challenges, so knowing the 
quantities we are dealing with from waste and keeping it out in 
the first place is important. If you start to fill your 
bathtub, and you get distracted, and all of a sudden you run 
back into the bathroom and you see your tub overflowing onto 
the floor, what are you going to do? In some cases you might 
pick up something really quick if it is going to get wet, but 
in most cases you are going to turn off that faucet as soon as 
possible, and then you are going to address the clean up.
    So there are roles for everyone to play in this and finding 
the most appropriate ways to tackle this problem. So when we 
see--we talked about this already, looked across our data--we 
saw a lot of middle income countries with really rapidly 
developing economies that haven't been able to build their 
waste management infrastructure because of the waste per person 
waste generation that happens with economic growth. So that is 
lagging behind.
    But also in high income countries where we have robust 
waste management practices we still see inputs because of high 
coastal populations and large per person waste generation 
rates.
    So we know the solutions; we have talked about some. We 
must cut back on plastic waste generation and increase the 
amount we capture and manage properly. This sounds simple. We 
do know how to design and manage waste systems, but waste 
management is more than just a design challenge, and this is 
something I talk about. It also has social and cultural 
dimensions.
    So we need global participation from various stakeholders. 
I think there has been a lot of global diverse interest. Our 
discussion here today is very important and our work beyond 
into the future. I am optimistic that we can make headway on 
this problem.
    So increasing reuse and recycling rates of plastic is 
really important. This can grow with the right economic 
structure in place to motivate the collection of plastic waste 
and the reprocessing of it. Yesterday I attended the U.S. 
Chamber of Commerce Sustainability Forum, and there is a lot of 
discussion on the concepts of circular economy and a lot of 
innovative things coming out of that meeting.
    I think we can also consider green engineering principles 
and how we use plastic and what we use it for. We might 
redesign some products; we might substitute some materials. I 
think technology is another potential help similar to the 
marine tracker mobile app that we developed at the University 
of Georgia with the NOAA marine debris program. And I think 
there are a lot of other innovations happening in this space.
    So one last thing I want you to remember today is that 
people are behind many of the numbers I gave you. There are 
people around the world picking up trash off the ground to get 
enough money to eat for that night. There are people around the 
world just learning about this issue for the first time. So I 
think helping every nation develop waste management 
infrastructure to address the issue is critical. It keeps 
plastic out of our oceans and also has large economic and 
public health benefits.
    So we hold the key to the solutions to this in the palm of 
our hands. By changing the way we think about waste, designing 
products for circular materials management, we can open up new 
jobs and opportunities for economic innovation. I think in 
addition we can improve the livelihoods of millions of people 
all around the world while protecting our waterways, our 
wildlife, and our ecosystems.
    Thank you, Chairman.
    [The prepared statement of Ms. Jambeck follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Sullivan. Thank you, Dr. Jambeck.
    Mr. Mallos.

    STATEMENT OF NICHOLAS MALLOS, DIRECTOR, TRASH FREE SEAS 
                   PROGRAM, OCEAN CONSERVANCY

    Mr. Mallos. Good morning, Mr. Chairman and members of the 
Committee. My name is Nick Mallos, and I serve as the Director 
of Ocean Conservancy's Trash Free Seas program. I am honored to 
be here to speak to the Subcommittee about the growing problem 
of marine debris, and today I hope to convey, first, the 
magnitude of the problem, the need for more research, and the 
need for systemic solutions.
    Plastic debris exists in every region of the ocean. More 
than 8 million metric tons of plastic now enter our ocean every 
year. And if current trends continue the ocean could contain as 
much as 1 ton of plastic for every 3 tons of fin fish by 2025.
    As a marine biologist I have been fortunate to see 
firsthand the harm caused by plastic debris. Plastic has 
impacted more than 690 species of marine wildlife worldwide. 
For example, plastic bags block or rupture the stomachs of sea 
turtles like the Kemp's ridley in the Gulf of Mexico.
    Plastics in the digestive systems of the Pacific oysters of 
the Northwest reduce reproductive ability by nearly 50 percent. 
And albatross chicks on Midway Atoll starve or choke on plastic 
bottle caps like the very ones you see here from Midway that 
their parents feed them after foraging from thousands of square 
miles of Pacific Ocean surface waters.
    For more than 30 years Ocean Conservancy has been at the 
forefront of the marine debris dialogue, working to tackle it 
from every angle. Beginning on the South Padre Island, Texas, 
beach in 1986, our International Coastal Cleanup has mobilized 
people all across America and more than 150 countries around 
the world around a single focus: keep trash off of our beaches, 
out of our waterways and the ocean.
    Since the Cleanup's inception, more than 225 million items 
of trash, weighing more than 110,000 tons, have been removed 
from our beaches and waterways. Working with these volunteers 
we have been able to construct the Ocean Trash Index, and item-
by-item, location-by-location data base highlighting the most 
persistent forms of marine debris. It is the largest data base 
of its kind.
    Consistently, plastic items are the most common debris 
found, making up 84 percent of all debris items collected 
during the clean up. Plastics also pose the greatest threat to 
our ocean and our people. However, clean ups alone are not 
enough. We also need to stop trash from getting to the beach in 
the first place.
    Given that in 2011 Ocean Conservancy founded the Trash Free 
Seas Alliance with partners like Dow, Procter & Gamble, and the 
World Wildlife Fund to unite thought leaders from industry, 
conservation, and academia to create pragmatic real world 
solutions to the issue of plastic debris. The Alliance is 
focused on a significant role that a lack of waste management 
in developing economies plays in plastic waste leaking into the 
ocean. Our 2015 report, Stemming the Tide, found that active 
efforts to improve waste management in just five southeast 
economies could reduce the amount of plastic entering our ocean 
globally by nearly 50 percent.
    Stemming the Tide also stresses that efforts to minimize 
the amount of waste we are generating in the first place must 
begin now to fully address the threat of plastic debris. To its 
credit Congress has long recognized this threat to our oceans 
by creating the Marine Debris Program at NOAA, funding clean 
activities all around the United States, and recently passing 
legislation banning plastic microbeads.
    But I am here to tell you more action is needed to build 
better data driven policy solutions to stop plastic from 
entering the ocean in the first place. This need is well 
articulated in a letter to the Trash Free Seas Alliance from 
leading marine scientists around the world. A copy of that 
letter is included in my written statement for reference.
    Put simply scientists and policymakers need to know more 
about where plastic debris originates, where it goes once in 
the ocean, what happens to it when it is there, and what impact 
it is having on the ecosystem. Better understanding in these 
four key areas will help us refine and design the most 
effective solutions. For this purpose we encourage Congress to 
fund more research.
    However, we already know enough to act now. We need to work 
globally to support programs that improve waste management and 
that minimize the amount of waste being generated to keep all 
types of marine debris from entering the environment in the 
first place.
    Finally I would like to share with the Subcommittee these 
letters from more than 10,000 concerned citizens throughout the 
country in support of immediate action to address the growing 
threat of marine debris to ocean health. I respectfully request 
they be included in the hearing record.
    Senator Sullivan. Without objection.
    Mr. Mallos. Again, I would like to thank the Committee for 
inviting me to testify on this important issue, and I look 
forward to answering any questions you may have. Thank you.
    [The prepared statement of Mr. Mallos and the referenced 
information follow:]
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Senator Sullivan. Great. Thank you. That was great 
testimony.
    Mr. Stone, you have 5 minutes for your oral testimony.

 STATEMENT OF JONATHAN STONE, EXECUTIVE DIRECTOR, SAVE THE BAY

    Mr. Stone. Thank you, Mr. Chairman and Senator Whitehouse 
and members of the Committee, for the opportunity to be here 
today on this important topic. I am going to share with you a 
slightly different perspective on the marine debris problem.
    Our organization, Save the Bay, was founded in 1970 and is 
the largest environmental group in Rhode Island, which, again, 
we are a small State, so that may not be saying too much. But 
we are a major force in the environmental community in southern 
New England. Our mission is to protect and improve Narragansett 
Bay.
    Much like the estuaries up and down the eastern seaboard, 
Narragansett Bay is one of the largest estuaries in New England 
and has been designated by the Federal Government as an estuary 
of national significance. Again, like other estuaries along the 
East Coast, the Bay is an important recreational and commercial 
resource for literally millions of people. It is also an 
important natural resource and habitat for commercial and 
recreational fisheries, hundreds of species of birds, marine 
mammals, shellfish, and other marine animals.
    Probably most relevant to this conversation more than 2 
million people live in the 1,600-square-mile Narragansett Bay 
watershed. More than 90 percent of Rhode Island's population 
lives within a 10-minute drive of the coast.
    Marine debris is a significant pollution problem in 
Narragansett Bay and along Rhode Island's south coast, and as 
Nick spoke of a few minutes ago Save the Bay participates each 
year in the Ocean Conservancy's International Coastal Cleanup. 
We organize clean ups led by volunteers across the State in 
southern New England each and every year.
    Last year, on a single weekend, almost 2,200 volunteers 
collected nearly 10 tons of trash along 65 miles of coastline, 
and I can tell you that virtually none of that came from the 
Pacific Ocean. That is a local, local problem. So the point I 
would like to emphasize for this Committee today is that this 
is not just an international problem; it is a local problem.
    The next chart, the pie chart, highlights the many types of 
trash and debris we remove each year, everything from derelict 
fishing gear and tires to tens of thousands of plastic 
cigarette butts. I remember back in the day cigarette butts 
weren't plastic; they biodegraded. Now they are plastic; they 
do not biodegrade. We collect beverage containers, food 
wrappers, and on and on and on.
    Most insidious and disturbing is the rapid accumulation of 
thousands upon thousands of fragments of plastic waste as it 
breaks down over time into smaller particles. These are 
virtually impossible to clean up and accumulate year after 
year. I have a very short video here to illustrate the point. 
Hopefully it will play here.
    [Video played.]
    Mr. Stone. Marine debris is a human health and safety 
hazard. It also degrades Rhode Island's iconic beaches and 
coastline, which attract millions of visitors each year and 
drive economic activity in our State. It harms animal species 
that inhabit the Bay. It has been observed, for example, that 
nesting osprey chicks suffer when they get tangled in fishing 
line that the osprey parents have used to construct the nest. 
Small bits of plastic, as you have heard from other panelists 
today, are ingested by fish and birds, and important coastal 
habitats are damaged by plastic debris.
    Most disturbing of all, marine debris is a chronic problem. 
It is not a problem without solution. There are solutions. In 
Rhode Island specifically we know that marine debris is caused 
by two things--illegal dumping and littering and polluted 
stormwater runoff. The solution to the stormwater problem is to 
capture runoff in order to filter and clean it before it 
reaches the waterways, the Bay and the coast. This requires 
investments in ongoing maintenance in stormwater 
infrastructure.
    The Federal Government plays an important role through the 
Department of Transportation the U.S. EPA to encourage States 
to develop stormwater management programs and to assist States 
in the design, construction, and maintenance of stormwater 
infrastructure.
    Our experience in Rhode Island is that stormwater 
improvements have additional benefits that go far beyond marine 
debris including reducing beach closures due to bacterial 
contamination, protecting drinking water supplies, reducing 
localized flooding, making neighborhoods more pleasant and 
livable.
    Thank you very much for your attention to this important 
topic. I appreciate the opportunity to be here.
    [The prepared statement of Mr. Stone follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Sullivan. Well, thank you, Mr. Stone.
    I want to thank all of you for your outstanding testimony 
and what you do beyond the testimony here. You are all leading 
organizations or in research to help address this problem, and 
very much appreciate that.
    I want to ask a few follow up questions.
    First, Mr. Pallister, I appreciated your testimony where 
you said, look, it is a big issue, but sometimes you need to 
prioritize, and you came down squarely in terms of the 
prioritization with regard to plastics, is that right?
    Mr. Pallister. Yes, correct.
    Senator Sullivan. And let me just ask the other panelists, 
would all of you agree with Mr. Pallister? If we were going to 
be really trying to focus on this prioritize our efforts would 
that be the proper area to focus on? Is everybody in general 
agreement on that, plastics?
    Mr. Mallos. Yes.
    Senator Sullivan. I feel like I am in the movie The 
Graduate, right?
    Mr. Mallos. Yes. I would say I completely concur that 
plastics are the priority focus. But I think when we think 
about solutions particularly as it pertains to many of the 
developing economies, as spotlighted by Dr. Jenna Jambeck's and 
others' work, simply addressing plastics in the waste stream is 
not a viable option. You actually have to address the entire 
waste stream to ensure you are mitigating the threat of 
plastics.
    So completely agree plastics is the most concerning part of 
the marine debris issue but solutions may look at managing the 
entire waste stream.
    Senator Sullivan. Look, Mr. Mallos, I thought you made a 
really good point about when we do clean up we are treating the 
disease, but we are not really preventing it, and we need to 
look at how to prevent it. So let me get back to the issue of 
the international element to this.
    Dr. Jambeck, you focused on that, and Mr. Pallister, I 
think you also talked about 90 percent, which was pretty 
stunning. Does the majority of this plastics debris from these 
five countries come from the shore? We have had a treaty, the 
MARPOL Treaty, which I am sure you are familiar with, but that 
focus is on dumping from ships. Does this debris that we are 
talking about, particularly from the five developing countries, 
come from the shore? And you have touched on it, Dr. Jambeck, 
you touched on it in your testimony; why is this such a 
problem?
    Ms. Jambeck. So just going into a little bit more detail of 
the research, what we did is look at a 50-kilometer buffer in 
192 countries around the world. It is the coastline, and 
population density is a large driver as well as the quantity of 
waste that each person in that area creates.
    Senator Sullivan. So it is pollution that is coming from 
shores, not ships.
    Ms. Jambeck. Correct.
    Senator Sullivan. And why do you think those five 
countries? Senator Whitehouse, he emphasized it. What is going 
on there that is not going on in other countries?
    Ms. Jambeck. So these are middle income countries who have 
started to have rapidly developing economies, which means that 
there is a lot of influx of, I would say, consumer goods and a 
lot of packaging. So as people are able to afford those kinds 
of goods, unfortunately the waste management infrastructure in 
those countries to handle the waste is absolutely--science 
shows that there is a coupling between economic growth and 
waste generation. So the infrastructure isn't there to handle 
it.
    Also the increase in plastic in the waste stream has 
happened very quickly. The production of plastic around the 
world went all the way up to 311 metric tons. So it is also an 
awareness, and I think someone touched on this. People don't 
know the implications of plastic in the environment. Things 
weren't made of plastic before, so they are having to have a 
mind shift of both infrastructure and then having this new 
waste stream that they need to address.
    Senator Sullivan. And in your research have you gone to a 
number of these countries?
    Ms. Jambeck. I have been to India, which is one that has a 
pretty extreme case as well.
    Senator Sullivan. And do you think that most of them would 
recognize that they have a problem, or would they be kind of 
like, hey, we don't really have a problem here?
    Ms. Jambeck. No, I think they do know. And there are a lot 
of grassroots efforts within these countries, and I think 
working with folks in the countries in a context sensitive 
design is important when addressing the issue.
    Senator Sullivan. So we have one international convention, 
the MARPOL Convention, as I mentioned, that addresses this from 
ships. Do you think that we need to do something else from an 
international perspective that addresses this issue, 
particularly plastics from shore?
    Ms. Jambeck. I think that there is a lot of great 
discussion happening at the United Nations level. I think the 
U.S. should be a leader and helping in those discussions. And I 
know that there is a meeting happening later this month, and I 
am hopeful that there will be some resolutions.
    Senator Sullivan. Let me ask one final question.
    Mr. Mallos, you talked about the Trash Free Seas Alliance. 
I think that is a really interesting group that brought 
together the scientific community, environmentalists, industry. 
Can you explain a little bit more on what was the origins of 
that; how it has worked? Because to me the way we need to 
address this--certainly we need to get our international 
partners engaged, but all different stakeholders engaged as 
well, and you seem to have done that already through this 
Alliance.
    Mr. Mallos. So the Trash Free Seas Alliance was founded in 
2011, and it is really built on the existing successful models 
seen in the sustainable seafood movement, alliances that were 
out there in the tropic forest alliances and others. The 
mandate of the Alliance is really to bring together all of the 
diverse stakeholders that need to be a part of the discussion.
    This is a massive problem, and there is no silver bullet. 
So we are going to need a holistic solution that includes 
minimizing the amount of waste we are generating, better 
managing the amount of waste that is currently in the system, 
and mitigating the waste that is already out there through 
clean ups and other mechanisms.
    So bringing together the members of industry who are either 
manufacturing plastics or making goods out of the plastics, 
bringing together the thought leaders in academia like Dr. 
Jenna Jambeck and others who are providing us novel, 
groundbreaking science on this, and then bringing together the 
NGOs and conservation organizations that are trying to drive 
forward policy solutions together build and provide us the 
necessary arsenal of weapons to actually tackle this issue at 
all angles.
    As I noted currently we are providing--working to try and 
jump start waste management in these developing economies, and 
I think it is really important to underscore that this is not 
currently a China problem or a Philippines issue, but this is 
rather an unintended consequence of rapid development. So 
thinking about how we work in these countries with the folks on 
the ground that are already leading this issue and already 
recognize that waste management is a challenge, coming at it 
from that angle and bringing together the global resources like 
the members of the Trash Free Seas Alliance possess is a 
winning recipe.
    Senator Sullivan. Great. Thank you.
    Senator Whitehouse.
    Senator Whitehouse. Thank you very much.
    Thank you to a terrific panel.
    Let me start with Mr. Pallister. You used a phrase in your 
testimony, the ``chemical signature of plastic components.'' 
Could you elaborate on that phrase?
    Mr. Pallister. Yes. It has always been my fear that the 
chemicals in plastic are much more dangerous than the physical 
things they cause, like ingestion, entanglement and everything. 
It reminds me of Rachel Carson's Silent Spring and all the 
chemicals were killing the birds in mass quantities compared to 
them getting killed by power lines and things like that.
    But now scientists are looking and they are finding 
chemicals from plastic, all inherent chemicals, the metabolites 
that break down from the chemicals, in all kinds of marine 
organisms. I think Dr. Jambeck would attest to that, too. And a 
lot of those chemicals are very, very toxic; they have very 
significant impacts on human health, and one of the primary 
researchers on a paper that was just published on thiolate is 
in the room here and she would know more about this than I, if 
you want to talk to her later.
    Senator Whitehouse. So you start with a piece of plastic 
that is floating in the ocean; it degrades and degrades into 
tiny little bits. Ultimately, those tiny little bits get taken 
up by some tiny little creature, and in that creature it can 
deteriorate further or be absorbed in a way that lets the 
chemicals loose from the plastic, and at that point, as 
creatures feed on it, it begins to bioaccumulate up the food 
chain, is that right?
    Mr. Pallister. That is exactly right. And the chemicals 
like pthalates that are put in the plastic to make it softer 
aren't very strongly bonded to the plastic, and they leech out 
very easily.
    Senator Whitehouse. So this could come home to roost in 
Alaskan salmon or other fish?
    Mr. Pallister. Oh, absolutely. The one slide we had there, 
the researchers are finding pthalates in practically every 
marine organism they look at up there, and nobody is really 
putting a lot of time and money into that, and to me I think it 
is a tremendous threat not just environmentally but also to 
human health and the commercial health of our fisheries up 
there. It would be just devastating if the loads of pthalates 
get so high that we can't eat the fish.
    Senator Whitehouse. Dr. Jambeck, the plastics that you have 
studied, how long do the various major types of plastic last? 
What is their curve as they biodegrade?
    Ms. Jambeck. So they fragment over time, and we don't 
really know.
    Senator Whitehouse. How much time? Are we talking 
centuries?
    Ms. Jambeck. You know what? We were in our scientific 
working group starting to address sort of the mechanisms and 
the speed of fragmentation, and we are not there yet; we don't 
really know. We know that it goes in, like I said, like this, 
and then on the beach it is washing up here. But it is a very 
long period of time, we suspect, but at the same time we 
already are seeing these fragments and a lot of this plastic 
has gone in in the last 50 years. So we really need to know 
more about that, and we really need to do more research.
    Senator Whitehouse. Mr. Mallos, what do you think about the 
notion of biodegradable plastics? Is that just a way of 
accelerating this bad process, or is there some better way to 
deal with that issue?
    Mr. Mallos. So biodegradable plastics are designed to break 
down biologically in very specific industrial settings. 
Standards exist that test and guarantee that those plastics 
will in fact perform that way when applied with X temperature. 
The challenge is those conditions exist very few places in the 
natural environment.
    And particularly when we look at the ocean environment, 
which has cooler temperatures, wind and radiation, UV 
radiation, et cetera, we know that biodegradable plastics 
perform just like traditional plastics, fragment at a rapid 
rate. So certainly there is need for more research to look at 
material and product innovation and design, but at the moment 
biodegradable plastics are not a solution to the ocean plastic 
problem.
    Senator Whitehouse. And Mr. Stone, in terms of the array of 
stuff that Save the Bay sees coming ashore in Rhode Island, 
which in our case has probably not been coming from those 
Pacific countries, it would have to travel a very long way to 
get there; a lot of it appears to be packaging. Are there 
efforts that can be undertaken or should be undertaken to brand 
some form of ocean safe packaging, so that a consumer can have 
a sense that this product will in fact biodegrade in a proper 
way and try to move the consumer toward seeking a better 
product in the same way that people go out of their way to buy 
dolphin safe tuna if they are given the choice?
    Mr. Stone. It is a good question. I think the rule of 
prevention is the path that probably is going to give you the 
most effective method of reducing pollution at the source. So I 
think what you have raised gets to this biodegradable question 
about how can packaging companies innovate in ways that produce 
materials that do degrade and are more environmentally 
friendly, and I think to the extent that the products actually 
perform as promised that is probably a step in the right 
direction.
    But I think there are other things that are as important. 
Recycling ends up being extremely important, getting people to 
reuse recycle to prevent these packaging products from entering 
the environment and to be contained within the normal waste 
stream is the first step. That way you don't have the products 
washing into the environment off the streets and off the urban 
landscape. And in the Far East the runoff issue is the primary 
source. It is mostly this heavily developed landscape that is 
sort of where these plastic products come from when they end up 
in the sea.
    Senator Whitehouse. My time is up, but I really want to 
thank Chairman Sullivan for hosting this. I think this has been 
a very productive, well attended, and bipartisan hearing. I 
think that the witnesses have been terrific.
    I would like to make it a matter of public record that Dr. 
Kurth is still here. He stayed to listen to the witness 
testimony. I don't know that I have ever actually seen that 
before. Usually, Administration witnesses scoot for the door 
the instant that they can. So I think it is significant that he 
stayed to listen through all of this, and I appreciate him 
doing that. And I hope that being called out that way is not 
inappropriate, but I was impressed.
    My final comment will be that I, in my opening remarks, 
mentioned the Trans-Pacific Trade partnership. For those of us 
who are very skeptical about the extent to which it bakes in 
false advantages for products that are made in those countries, 
the false advantage of not having an effective water management 
system in your country so that you dump millions of tons of 
plastic into the world's oceans, and that makes your products 
cheaper compared to a competing American product that not only 
has to support its own cost, but the infrastructure cost of a 
working waste management system, is exactly the kind of 
advantage that, first of all, makes me nuts about that 
agreement.
    But it gives us a real, I think, opportunity to focus on 
that is no fair basis on which to make a trade distinction. The 
more we can drive these countries to clean up their act, I 
think, as Dr. Jambeck said, you surge up into a level of 
economic development where you are starting to use plastic for 
the first time, and it becomes ubiquitous, but you have a 
concomitant responsibility to bring your waste management 
infrastructure up to snuff as well. And if we are not going to 
urge them to do that through our trade policies, then shame on 
us.
    But again, Chairman Sullivan, thank you for letting me go 
over here a minute, and thank you for this hearing.
    Senator Sullivan. No problem, Senator Whitehouse. Matter of 
fact, as Chairman of this Committee, I am going to take the 
prerogative to ask just a few more follow up questions, and if 
you have any more, feel free to ask.
    I just want to, first, thank the Committee again. This has 
been a really good panel.
    Mr. Pallister, given that you have traveled quite a 
distance here, from Alaska, to come testify, I wanted to ask 
another question to you, a little more Alaska specific. Can you 
describe some of the challenges on the clean up of marine 
debris that we face in parts of the country, Alaska, but there 
are other parts that have very, very remote areas, very remote 
areas of our coastlines?
    Mr. Pallister. It is extremely difficult in Alaska because 
we have virtually no shoreline that has vehicle access to it, 
so you get there by boat or you get there by air, and right now 
we are working on Montague Island, which is a notoriously 
horribly polluted area. We have 10 people out there working. We 
have to move them with helicopters. So you can imagine the 
cost. And this is a shoreline where 30 tons of plastic debris 
per mile exists. It is extremely rugged; the weather is 
horrible.
    Senator Sullivan. Did I hear that right? Say that again.
    Mr. Pallister. Thirty tons of plastic debris per mile. 
Montague has 74 miles of shoreline just like that, and we have 
been working on it for three summers now, and we have only 
cleaned 9 miles of it, and it is costing a tremendous amount of 
money. And we are a nonprofit. We are not in it for the money; 
it is by the seat of our pants. It is a dangerous place to 
work, it is incredibly challenging, and there are thousands of 
miles like that along Alaska coasts, and it is extremely rich.
    But I wanted to go to back to the Trans-Pacific Trade 
Treaty you are working on now. There is an opportunity here 
because shipping is protected under an international treaty, 
but here is an opportunity. There are a lot of shipping 
companies that lose containers, and nobody ever goes after them 
for the damage they cause onshore.
    In 2012, January 2012, the China Ocean Shipping Company's 
big transport ship, the Yokohama, lost 29 containers in the 
northern Gulf of Alaska. The debris from those containers has 
now spread over thousands of miles of shoreline. So this is 
kind of official notice to the Federal Government now, you have 
a statute of limitations of 2 years for the landowners, which 
would be the Forest Service and the Fish and Wildlife Service 
and the rest of them, to go after the China Ocean Shipping 
Company for damages to clean all that up. You are talking tens 
of millions of dollars of potential resource for clean up work.
    Also, that big ship, I think it was a ship that went down 
in the Bermuda Triangle last year and killed a bunch of 
sailors, but it also lost 200 and some containers. Nobody is 
talking about getting recovery for the plastics that are going 
to be coming out of those containers for generations, and it is 
something that ought to be explored.
    Senator Sullivan. Thank you.
    Mr. Mallos, one other. I am very interested in some of the 
alliances that you have worked on. In 2011 the global plastics 
industry led an international effort that resulted in the 
Global Declaration for Solutions on Marine Litter. Can you talk 
a little bit about that, what motivated the stakeholders to do 
that and what has been accomplished since its adoption?
    Mr. Mallos. So the Declaration on Marine Litter was 
announced at the 5th International Marine Debris Conference in 
Honolulu, and I think what the Declaration underscores is the 
recognition and acknowledgment by the global plastics industry 
that they have a role and responsibility in crafting solutions. 
We believe very strongly that the plastics industry and the 
consumer goods industry have a role to play in not only helping 
to develop solutions but also looking at ways to finance and 
provide resources to implement solutions.
    That is precisely what we created the Trash Free Seas 
Alliance platform to do. And it is worth noting several of the 
signatories to the Declaration are in fact members of the Trash 
Free Seas Alliance and are quite active in helping us look at 
how we not only craft solutions but implement them looking at 
the political boundaries, looking at the management systems 
currently in place. So there is the recognition by the 
industry, and there has been active engagement and solutions 
put forth by them to tackle this problem.
    Senator Sullivan. Well, listen, I want to thank the 
panelists again. This is one of these issues, in my view, that 
not enough Members of Congress, not enough Americans are aware 
of, and it is certainly something that we should all be 
concerned about. And I do think that what you have done, and it 
is a very important service, is not only describe some of the 
challenges, but put forward ideas for solutions both at the 
clean up stage but also at the origins of this problem.
    So I can tell you Senator Whitehouse and I are already 
talking about maybe looking at some ideas to address this, so I 
think you have furthered a bipartisan consensus on the need to 
take action here. So we will stay tuned. But thanks again for 
all your hard work. Thanks for your excellent testimony.
    I will let Senator Whitehouse close here.
    Senator Whitehouse. Just before we sign off, I would like 
to offer each of these four witnesses the same opportunity 
offered Dr. Kurth, who is still here, which is to give us a 
highlight reel of up to, say, five recommendations that you 
would make to Senator Sullivan and myself by way of things that 
you think we could do to be helpful, and that will give us a 
good array of ideas to consider.
    I thank all the witnesses. I thank the Chairman.
    Senator Sullivan. This hearing is adjourned.
    [Whereupon, at 11:46 a.m. the Subcommittee was adjourned.]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
